Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE PAYMENTS FOR
     THERAPEUTIC SHOES




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1998
                      OEI-03-97-00300
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                   HEADQUARTERS

Robert Katz, Project Leader                              Elise Stein, Program Specialist

David Tawes, Program Analyst                             Barbara Tedesco, Technical Support Staff

Cynthia Hansford, Program Assistant                      Brian Ritchie, Technical Support Staff

Brijen Shah, Intern





     To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
             Reports are also available on the World Wide Web at our home page address:

                                    http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

This report assesses the propriety of billings for therapeutic footwear provided to Medicare
beneficiaries.

BACKGROUND

The Medicare Part B benefit covers therapeutic footwear for beneficiaries with diabetes and one
or more of six qualifying conditions. According to documentation guidelines specified by
Medicare, a doctor of medicine or a doctor of osteopathy who is treating the beneficiary's
systemic diabetic condition under a comprehensive plan of care must certify the need for
therapeutic footwear. This physician must also attest that the beneficiary suffers from one or
more of the qualifying conditions.

A podiatrist or other physician must order or prescribe the necessary footwear. The footwear
then must be fitted and furnished by a podiatrist or other qualified individual, such as a pedorthist,
orthotist, or prosthetist.

If the certification statement completed by the physician who is treating the patient's systemic
diabetic condition indicates that all Medicare requirements are met, the billing entity submits a
claim form to the Durable Medical Equipment Regional Carrier (DMERC) for reimbursement,
adding a ZX modifier to the appropriate procedure code. The ZX modifier certifies that all
coverage requirements have been met, and pertinent documentation reflecting this is available in
the supplier's files.

Eligible beneficiaries may receive either one pair of custom-molded shoes or one pair of depth
shoes per year. According to DMERC policy, the beneficiary must have a foot deformity in order
to be eligible for custom-molded shoes. In addition, beneficiaries receiving custom shoes are
eligible to receive two pairs of custom-molded inserts per year. Beneficiaries receiving depth
shoes are allowed three pairs of custom-molded inserts.

Suppliers of therapeutic footwear are reimbursed on a reasonable-charge basis. In 1996,
maximum reasonable charge limits were $368 per pair for custom shoes, $123 per pair for depth
shoes, and $62 per pair for inserts. Medicare allowances for these three products doubled from
1994 to 1996, rising from $7 million to $13.9 million.

FINDINGS

Documentation for 57 percent of therapeutic shoe claims was missing or inadequate.

We found that suppliers billed Medicare for providing therapeutic footwear to beneficiaries even
though they did not have the required documentation to support medical necessity. In almost all
of these cases, the suppliers had used a ZX modifier indicating that the proper documentation was
on file. Problems included no orders and no physician certifications, improperly completed
physician certifications, and physician certifications signed by podiatrists. We calculated that $7.7

                                             )))))))))))
                                                  iii
million of the $13.9 million spent on therapeutic shoes and inserts in 1996 was improper due to
inadequate documentation.

Medicare guidelines do not clearly define qualifications of non-physician entities who furnish
therapeutic footwear.

The only requirement with respect to footwear expertise states, "The footwear must be fitted and
furnished by a podiatrist or other qualified (emphasis added) individual such as (emphasis added)
a pedorthist, orthotist or prosthetist." However, the guidelines do not specify standards, training,
or minimum qualifications for non-physician entities. Suppliers do not have to submit any
evidence of their expertise to Medicare.

Beneficiaries’ responses indicate questionable eligibility.

A few beneficiaries self-reported that they did not have diabetes or other qualifying conditions.
Almost half of the beneficiaries receiving custom-molded shoes denied having the requisite foot
deformity.

Some beneficiaries report problems with the footwear.

Thirteen percent of beneficiaries reported seldom or never wearing the shoes. Most did not
complain to the supplier; they simply stopped wearing the footwear.

There is potential for enormous growth in the shoe program.

The potential number of therapeutic footwear beneficiaries has barely been tapped, with less than
1 in 50 Medicare-aged diabetics receiving shoes in 1996. There are undoubtedly many diabetic
beneficiaries who could benefit from therapeutic footwear, yet have not taken advantage of the
benefit. At the same time, ambiguous guidelines and aggressive marketing practices may cause
beneficiaries who do not need shoes to receive them. As a result, allowances for therapeutic
footwear could rise to hundreds of millions of dollars per year.

RECOMMENDATIONS

We believe that Medicare coverage as well as documentation requirements should be revised. 

The lack of specific guidelines and the existence of ambiguous requirements have unnecessarily

contributed to the growth of Medicare expenditures for therapeutic footwear. Therefore, we

believe it is vital for the Health Care Financing Administration (HCFA) to remedy the

questionable practices and irregularities uncovered in our inspection. We recommend that HCFA,

in concert with the DMERCs and concerned national organizations, devise a strategy to 1) make

coverage requirements more explicit and specific, 2) eliminate the documentation problems we

encountered, and 3) develop a plan to ensure that the therapeutic footwear benefit contains

quality assurance safeguards.


AGENCY COMMENTS

The HCFA concurred with our recommendations. However, they indicated that implementation
would be difficult owing to a lack of financial resources. In order to secure adequate funding to

                                            )))))))))))
                                                 iv
oversee benefits such as therapeutic footwear, HCFA has been working with Congress to explore
various options. In response, HCFA proposed using an educational approach with suppliers,
emphasizing coverage requirements and the importance of proper documentation. With respect
to our recommendation regarding quality assurance safeguards, HCFA said it was unclear
whether assuring appropriate documentation would meet the goal of instituting quality assurance
safeguards. The HCFA also provided technical comments concerning two coverage aspects of
the therapeutic footwear benefit, “poor circulation” and foot deformity. Further, they also
provided technical comments about our future cost projections.

We concur with HCFA’s proposal to undertake an educational initiative for diabetic footwear.
Still, we believe further efforts, such as those suggested in our recommendations, are needed to
curb the questionable practices and irregularities detailed in our report. With regard to our
recommendation on quality assurance, we would like to clarify that documentation is a separate
and distinct issue. We continue to believe that HCFA should work with the DMERCs and
interested national organizations to develop a plan to ensure that the therapeutic footwear benefit
contains quality assurance safeguards.




                                            )))))))))))
                                                 v
                             INTRODUCTION

PURPOSE

This report assesses the propriety of billings for therapeutic footwear provided to Medicare
beneficiaries.

BACKGROUND

Title XVIII of the Social Security Act prescribes coverage requirements under Part B of the
Medicare program. Part B covers services and items including durable medical equipment
(DME). Although therapeutic footwear products for diabetics are not considered DME, they are
covered under Medicare Part B, and claims for reimbursement are processed by the DME regional
carriers (DMERCs). The four DMERCs process all Medicare claims for prosthetics, orthotics,
medical supplies, and other DME. They are under contract with the Health Care Financing
Administration (HCFA), the agency which administers the Medicare program.

An estimated 16 million people in the United States have diabetes, although half may not know
they have the illness. Every year, about 625,000 new cases are diagnosed. Foot problems cause
20 percent of diabetic hospitalizations. Diabetics undergo approximately 54,000 lower limb
amputations each year.

Medicare Coverage of Therapeutic Footwear

According to Medicare Carriers Manual section 2134, Medicare covers therapeutic footwear for
vulnerable beneficiaries who meet certain requirements. Medicare coverage for therapeutic
footwear became effective May 1, 1993. To meet the eligibility requirements, beneficiaries must
be receiving treatment for diabetes. They must also have one or more of the following conditions:

       1.   Peripheral neuropathy with evidence of callus formation.
       2.   A history of pre-ulcerative calluses.
       3.   A history of previous foot ulceration.
       4.   Foot deformity.
       5.   Previous amputation of a foot or part of a foot.
       6.   Poor circulation.

According to HCFA’s documentation guidelines, a doctor of medicine or a doctor of osteopathy
who is treating the beneficiary's systemic diabetic condition under a comprehensive plan of care
must certify the need for therapeutic footwear. This physician must also certify that the
beneficiary suffers from one or more of the six qualifying conditions cited above. (A certification
form recommended by the DMERCs is presented in Appendix A.)

A podiatrist or other physician must order or prescribe the necessary footwear. The footwear
must be fitted and furnished by a podiatrist or other qualified individual, such as a pedorthist,
orthotist, or prosthetist. The certifying physician may not supply the footwear unless he or she is
the only qualified individual operating in the geographical area serving the beneficiary's address.


                                            )))))))))))
                                                 vi
An order for the footwear which has been signed and dated by the prescribing physician must be
kept on file by the footwear supplier. If the prescribing physician is the supplier, a separate order
is not required, but the footwear provided must be clearly noted in the beneficiary's record.

Generally, therapeutic footwear for diabetics is supplied and billed to the Medicare program by
podiatrists or non-physician entities which specialize in footcare supplies and products. If the
certification statement completed by the physician who is treating the patient's systemic diabetic
condition indicates that all Medicare requirements are met, the billing entity submits a claim form
to the DMERC for reimbursement, adding a ZX modifier to the appropriate procedure code. The
ZX modifier certifies that all coverage requirements have been met, and pertinent documentation
reflecting this is available in the supplier's files. The documentation itself does not have to be
submitted with the claim form. To emphasize the importance of the ZX modifier as well as the
integrity of Medicare billings, HCFA has stated, “If a supplier uses a ZX modifier despite the
applicable requirements not being met, the supplier is submitting fraudulent claims to the
Medicare program.”

Coverage Limitations

Eligible beneficiaries may receive one pair of custom-molded shoes or one pair of depth shoes per
calendar year. Beneficiaries receiving custom-molded shoes may receive two pairs of inserts (in
addition to the inserts provided with the shoes) per year. Beneficiaries receiving depth shoes are
eligible for up to three additional pairs of inserts each year.

The HCFA defines a custom-molded shoe (procedure code A5501) as one that 1) is constructed
over a model of the patient's foot, 2) is made from leather or other suitable material of equal
quality, 3) has removable inserts that can be altered or replaced if necessary, and 4) has some
form of shoe closure. According to instructions contained in policies issued by the DMERCs, a
beneficiary must have a foot deformity to qualify for custom-molded shoes.1

A depth shoe (procedure code A5500), according to HCFA guidelines, 1) has a full-length heel-
to-toe filler which, when removed, provides a minimum of 3/16" of additional depth used to
accommodate custom-molded or customized inserts, 2) is made from leather or other suitable
material of equal quality, 3) has some form of shoe closure, and 4) is available in full and half sizes
with a minimum of three widths so that the sole is graded to the size and width of the upper
portions of the shoe.

Inserts (procedure code A5502) are defined as total contact, multiple density, removable inlays
that are directly molded to the patient's foot or a model of the patient's foot, and are made of
suitable materials with respect to the individual patient's needs.

Medicare Allowances for Therapeutic Footwear

Suppliers of therapeutic footwear are reimbursed on a reasonable-charge basis rather than a fee

 1
  “A custom-molded shoe (A5501) is covered when the patient has a foot deformity which cannot be
 accommodated by a depth shoe.” (Region A DMERC Supplier Manual 20.1-3, Region B DMERC Supplier
 Manual XVII-166, Region C DMERC Supplier Manual 18.33, and Region D DMERC Supplier Manual IX-
 120.)

                                             )))))))))))
                                                 vii
schedule. Medicare limits payment to 80 percent of the reasonable charge. In 1996, maximum
reasonable charge limits were $368 per pair of custom-molded shoes, $123 per pair of depth
shoes, and $62 per pair of inserts. These amounts include reimbursement for any expenses
incurred for the fitting of the footwear.

Medicare allowances for depth shoes, custom-molded shoes, and inserts doubled from 1994 to
1996, going from $7 million to $13.9 million. In these 3 years, allowances for depth shoes more
than doubled, rising from $2.1 million to about $5 million. Allowances for custom-molded shoes
increased 50 percent from $3 million to $4.5 million. Allowances for inserts almost tripled, rising
from $1.8 million to $4.4 million.

METHODOLOGY

We examined sections of the Medicare Carriers Manual and DMERC Supplier Manuals regarding
the provision of therapeutic shoes and inserts for diabetics. Additionally, we reviewed data on
diabetes in order to gain insight into the nature and prevalence of the disease and its impact on the
foot. We also contacted several relevant national organizations to obtain information about
diabetes and therapeutic foot care.

We obtained 1996 Medicare allowances for therapeutic footwear from the Part B Extract
Summary System (BESS). In 1996, 97 percent of the total allowances were for procedure codes
A5500, A5501, and A5502. Therefore, we focused the inspection on these three codes.

We selected our sample of beneficiaries and suppliers by using all of the 1996 claims for A5500
and A5501 from a 1 percent DME claims file developed from HCFA's National Claims History
File. The random sample consisted of 474 claims (one claim per beneficiary) submitted by 333
suppliers. Fifteen percent of suppliers were podiatrists. The remaining 85 percent were non-
physician entities such as pedorthists, shoe stores, and DME companies.

The selection of the three codes represented $11.3 million in allowances out of a universe of
$12.1 million in total therapeutic footwear allowances when the sample was selected. At the
conclusion of the study, we obtained more complete figures for 1996 which revealed that the
three selected codes had accounted for $13.9 million in allowances out of a total of $14.4 million.

Additionally, we obtained 1996 Part B claims histories for each beneficiary in the sample. The
histories displayed the procedure code and date of service for each Part B service provided in
1996 along with the unique physician identification number (UPIN) for the physician rendering
the service.

Beneficiary Information Requests

We contacted the beneficiaries by telephone and by mail. We first removed the beneficiaries
known to be deceased from the pool of potential respondents, leaving us with 443. We then
called the beneficiaries with known telephone numbers. We mailed questionnaires to those
beneficiaries whom we could not contact by telephone.

Our beneficiary information requests covered several major areas, including, 1) confirmation of
diabetes and qualifying conditions, 2) identification of the physician treating the diabetes, 3)

                                            )))))))))))
                                                viii
confirmation of the receipt of footwear, and 4) satisfaction with the products received. In all, 337
beneficiaries or close relatives completed the information requests (76 percent response rate).

Supplier Information Requests

In this report, we use the term "supplier" to refer to the entity which billed Medicare for the
therapeutic shoes provided to the beneficiary. We mailed information requests to the 333
suppliers representing the 474 sample claims. Claims for deceased beneficiaries were not
excluded from these requests.

The supplier data collection instruments contained requests for copies of documentation,
including, 1) the shoe order or prescription, 2) the physician certification, 3) the supplier's
credentials, and 4) a picture and/or description of the shoes provided. We also asked questions
about the suppliers' marketing practices to determine how information about the benefit was
reaching the beneficiaries. Suppliers returned completed requests for 462 of the 474 sampled
claims (97.5 percent response rate). We also visited a number of suppliers and certifying
physicians to confirm the accuracy of the information received.

Analysis

We analyzed the beneficiary responses concentrating on several key issues. We checked to see if
the beneficiaries verified having diabetes and receiving special shoes. We also reviewed
beneficiary responses to questions concerning their attending physicians, foot problems, typical
footwear utilization patterns, and satisfaction with footwear.

We reviewed the supplier responses to confirm that each piece of requested documentation-­
particularly the physician certification--was enclosed. We examined the certifications to ensure
that the forms were completed, signed, and dated by the physicians treating the beneficiaries'
systemic diabetic conditions.

We checked footwear orders and physician certifications to ensure that beneficiaries had one or
more of the six qualifying conditions to receive the footwear and that they were under a
comprehensive plan of care for their diabetes. We determined that Medicare guidelines for
therapeutic footwear were not met if orders or certifications were missing, if certifications were
incomplete, or if certifications were completed by podiatrists.

We compared beneficiary and supplier responses to related questions to detect inconsistencies and
aberrant practices. We sought to verify that the name of the physician treating the beneficiary's
diabetic condition was the same physician completing the physician's certification form. We also
checked the Part B billing histories to determine if the physician's UPIN number indicated that
services were provided in 1996.

We used chi-square independence tests to determine if certain categorical variables influenced
other categorical variables. The size of the chi-square test statistic indicates whether the
difference between the observed and expected values is due merely to chance or reflects the
influence of one variable over the other.

Chi-square statistics, percentage estimates and corresponding 95 percent confidence intervals for

                                             )))))))))))
                                                  ix
beneficiary and supplier data were computed using standard statistical formulas for systematic
random samples. For categorical variables, the sample size was calculated to produce estimates
within 5 percent of the true value at the 95 percent confidence level. Point estimates and
confidence intervals are provided in Appendix B.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President's Council on Integrity and Efficiency.




                                    FINDINGS

DOCUMENTATION FOR 57 PERCENT OF THERAPEUTIC SHOE CLAIMS WAS
MISSING OR INADEQUATE.

We found that suppliers billed Medicare for providing therapeutic footwear to beneficiaries even
though they did not have the required documentation to support medical need for the products.
Medicare policy requires that both an order/prescription and a physician’s certification be kept on
file by the supplier in order to establish medical need for the footwear. In all but five of the
questioned claims, suppliers had appended a ZX modifier indicating that they had the required
documentation on file. Problems with physician certifications predominated the documentation
problems, although there were also claims without the required order/prescription.

We estimate that Medicare paid $6.2 million of the $11.3 million on which our sample was based

                                            )))))))))))
                                                 x
for claims that did not have the required documents to support medical need. Estimated
allowances for claims without the required documentation total $7.7 million when applied to the
$13.9 million allowed for the three codes in 1996. In all, approximately 57 percent of the claims
from the responding suppliers lacked appropriate documentation to justify coverage. The
documentation irregularities we found are detailed below. (Note: Adding the individual
categories of documentation problems does not add up to the total because some claims had more
than one problem.)

Physician certifications were the most common documentation problem.

Almost 50 percent of the physician certifications for therapeutic footwear were improper. In
total, for 230 of the 462 respondent claims, either there were no certifications on file, the
certifications were completed improperly or had information missing, or the certifications were
completed by a podiatrist.

 !	    Suppliers failed to submit physician certification statements for 18 percent of therapeutic
       footwear claims. After they received our requests, some suppliers obtained and submitted
       a physician certification statement signed in 1997 as support for the claim filed in 1996.

 !	    Physicians completed certifications improperly or left out vital information for 26 percent
       of therapeutic footwear claims. The problems we found included, 1) no qualifying
       conditions indicated, 2) undated or outdated certifications, or 3) no foot deformities
       documented for beneficiaries for whom custom-molded shoes were prescribed.

 !	    Podiatrists completed physician certifications for 10 percent of therapeutic footwear
       claims. Medicare requires that the physician certification must be completed by the
       physician who is managing the patient's diabetic illness. According to DMERC
       instructions, "The certifying physician cannot be a podiatrist.”



Additionally, for 6 percent of therapeutic footwear claims, we questioned whether the certifying
physician was the physician responsible for managing the patient's systemic diabetic condition. In
these cases, the UPIN numbers of the certifying physicians never appeared in the beneficiaries’
1996 Part B billing histories, and the beneficiaries had provided the names of different physicians
as their primary doctors. This raised doubts whether the “comprehensive plan of care”
requirement had been met. We realize, however, that there could be valid reasons why a
physician's services do not appear among UPIN listings.

The physician who manages a patient's systemic diabetic illness under a comprehensive plan of
care is usually either an internist, general practitioner, or family medicine specialist. However, we
found that for some claims, the certifying physician was an orthopedic surgeon or rehabilitation
specialist. While contact with some of these specialists indicates many of them feel they should be
able to certify the need for shoes, Medicare guidelines seem to prohibit them from doing so, as
they are not the primary physician managing the diabetes.


                                            )))))))))))
                                                11
We felt we had insufficient information to make a judgment in these cases. We will refer these
cases to the DMERCs for their further review and disposition.

Some suppliers failed to obtain physician orders/prescriptions.

According to HCFA policy, the prescribing physician must complete an order or prescription
which must be kept on file by the footwear supplier. If the prescribing physician is the supplier
(such as a podiatrist), a separate order is not required. Podiatrists or other physicians supplied the
footwear for 13 percent of the claims. For claims filed by non-physician suppliers, 16 percent did
not have orders from the prescribing physicians. Approximately half of those with missing orders
also had questionable certifications.

MEDICARE GUIDELINES DO NOT CLEARLY DEFINE QUALIFICATIONS FOR
NON-PHYSICIAN ENTITIES WHO FURNISH THERAPEUTIC FOOTWEAR.

Medicare guidelines do not specify standards, training, or minimum qualifications for non-
physician entities in the fitting and furnishing of therapeutic footwear. The only requirement with
respect to footwear expertise states, "The footwear must be fitted and furnished by a podiatrist or
other qualified (emphasis added) individual such as (emphasis added) a pedorthist, orthotist or
prosthetist." It is unclear whether the original intent of this guideline was to require that a
supplier be credentialed or be a pedorthist, prosthetist, or orthotist. Evidently, any individual with
a Medicare provider number could purport to be a "qualified" shoe supplier and fit and provide
therapeutic footwear. The individual does not have to submit any evidence of their expertise to
HCFA. According to some clinicians, therapeutic shoes may actually harm patients if they are
fitted by inexperienced suppliers. They suggest that shoes should only be fitted by practitioners
trained to work with the diabetic foot.

In our requests to non-physician entities for information, we asked for evidence of expertise, such
as credentials in pedorthics. Of the 273 non-physician suppliers who responded to our requests,
52 (19 percent) did not provide credentials. Furthermore, suppliers who did not provide
credentials for a claim were significantly less likely to have the proper documentation on file.
(See computation notes in Appendix B.)

BENEFICIARY RESPONSES INDICATE THAT SOME WERE NOT ELIGIBLE FOR
THE FOOTWEAR PROVIDED.

A number of beneficiaries reported not having the conditions necessary to qualify for the footwear

provided. 


 !     Three percent of beneficiaries denied having diabetes. 

 !     Twelve percent of beneficiaries denied having any of the six qualifying conditions. 

 !     Forty-seven percent of beneficiaries who received custom-molded shoes denied having

       foot deformities or amputations, a required condition for Medicare’s coverage of custom-
       molded shoes, according to DMERC instructions.



                                             )))))))))))
                                                 12
We will forward the claims involving these denials to the appropriate DMERCs for their review.

SOME BENEFICIARIES REPORT PROBLEMS WITH THE FOOTWEAR.

Most of the beneficiaries who reported receiving shoes said they were satisfied with the footwear.
However, 20 percent of beneficiaries reported that they were dissatisfied. One beneficiary wrote,
“Most of these people, once they get your money, they can care less about your satisfaction.”

While most responding beneficiaries (including some who expressed dissatisfaction) reported that
they wore the shoes often, 13 percent reported that they seldom or never wore the shoes.
Reasons commonly given for seldom or never wearing the shoes included, 1) the shoes fit poorly,
2) the shoes hurt their feet, and 3) the shoes were "heavy" or "hot." (One beneficiary reported
that the shoes caused an ulcer which led to an amputation.) Most of the beneficiaries who
reported these problems did not complain to their shoe suppliers. They simply stopped wearing
the footwear.

We calculated that Medicare allowed $1.1 million in 1996 for shoes which beneficiaries rarely or
never wore. Clearly, the problem of ill-fitting or uncomfortable shoes has economic consequences
as well as quality assurance issues. In our view, if Medicare is paying for a product, then the
supplier should take appropriate steps to ensure that the product provided is suitable.

Finally, 4 percent of the beneficiaries with 1996 therapeutic footwear claims denied receiving
shoes or inserts that year. These claims will also be forwarded to the DMERCs for review.

THERE IS POTENTIAL FOR ENORMOUS GROWTH IN THE SHOE PROGRAM.

While increasing allowances indicate that Medicare is paying more for therapeutic footwear each
year, the potential number of eligible beneficiaries has barely been tapped. The potential for
enormous growth in the therapeutic footwear benefit could produce both positive and negative
consequences. Approximately 3.2 million Americans over the age of 65 have diabetes. If we
assume that all these persons are Medicare-eligible, then less than one out of 50 received
therapeutic footwear in 1996. There are undoubtedly numerous diabetic beneficiaries who need
the shoes yet are not even aware the benefit exists. There have been numerous programs
attempting to distribute information to these beneficiaries. When they begin to take advantage of
the benefit, diabetic foot complications may decrease dramatically.

At the same time, ambiguous coverage guidelines and aggressive marketing practices may result
in beneficiaries receiving shoes who may not actually have a need for the footwear. Not only
would this result in increased allowances, but would also open the program up to the fraud and
abuse that has plagued numerous areas of DME.

We believe that almost every diabetic beneficiary is technically eligible for, and may at some point
become aware of, Medicare’s therapeutic footwear benefit. To illustrate the potential cost for
therapeutic footwear, we calculated cost estimates if between 20 and 90 percent of diabetic
beneficiaries were to receive shoes and inserts. We calculated that if 20 percent of diabetic


                                            )))))))))))
                                                13
beneficiaries received footwear, allowances could rise to over $150 million per year. If 50 percent
of diabetic beneficiaries received footwear, allowances could rise to more than $380 million.
Finally, if 90 percent receive footwear, allowances could total between $690 million and $1 billion
annually. (See computation notes in Appendix C.)

Various factors will spur future growth.

We believe HCFA’s inclusion of “poor circulation” as a qualifying condition for footwear will
unnecessarily contribute to future growth. “Poor circulation” is a non-clinical, "catchall" term,
according to one medical advisor, which connotes a variety of symptoms, such as numbness and
tingling in the extremities and a "cold" feeling. One supplier we visited stated that almost every
senior citizen with diabetes has poor circulation. However, he added, that does not mean they
need therapeutic shoes.

Additionally, greater awareness of the therapeutic footwear benefit among physicians and
suppliers, increased public relations and advertising activity among footwear manufacturers, and
more aggressive marketing and billing practices by suppliers who specialize in therapeutic
footwear products may further contribute to growth in the program.

We found an example of aggressive marketing and billing practices in one area of south Texas.
Though only having four therapeutic footwear suppliers and less than one-half of 1 percent of the
national population, this area accounted for 9 percent of 1996 allowances. Visits to this area
revealed that suppliers engage in extensive advertising and public relations efforts, such as
speaking at senior citizen gatherings and personally visiting physicians to educate them about
therapeutic footwear. Additionally, 30 of the 32 sampled depth shoe claims from South Texas
suppliers (94 percent) had billings for the maximum number (3) of inserts. In contrast, only 57 of
the 325 depth shoe claims in the sample (18 percent) from suppliers outside of South Texas had
billings for three inserts. If other suppliers begin to market their products and maximize insert
billings in this manner, diabetic footwear allowances could increase dramatically.

                      RECOMMENDATIONS

We believe that Medicare coverage as well as documentation requirements should be revised.
Clearly, the lack of specific guidelines and the existence of vague and ambiguous requirements has
unnecessarily contributed to the growth of Medicare expenditures for therapeutic footwear.
Because the potential growth is so great, we believe it is vital for HCFA to remedy the
questionable practices and irregularities uncovered in our inspection. We recommend that HCFA,
in concert with the DMERCs and concerned national organizations, devise a strategy to 1) make
coverage requirements more explicit and specific, 2) eliminate the documentation problems we
encountered, and 3) develop a plan to ensure that the therapeutic footwear benefit contains
quality assurance safeguards. Such a strategy may include:

 !     Revising eligibility standards to either better define “poor circulation” or eliminate it as a
       qualifying condition.
 !     Clearly delineating the various specialties eligible to sign physician certifications and

                                             )))))))))))
                                                 14
       orders/prescriptions.
 !     Stressing to footwear suppliers (perhaps through a special bulletin) the importance of the
       ZX modifier and compliance with documentation guidelines.
 !     Periodically reviewing a sample of therapeutic shoe claims to ensure that appropriate
       documentation is on file and that the ZX modifier is being properly used.
 !     Developing standards to govern non-physician entities which fit and provide therapeutic
       footwear.

AGENCY COMMENTS

The HCFA concurred with all of our recommendations. However, they indicated that
implementation would be difficult owing to a lack of financial resources. In order to secure
adequate funding to oversee benefits such as therapeutic footwear, HCFA has been working with
Congress to explore various options.

The HCFA stated that since suppliers are not required to submit documentation to the DMERCs,
it is difficult to detect any problems using the normal claims processing system. However, HCFA
advocated using an educational approach with suppliers, emphasizing coverage requirements and
the importance of proper documentation.

With respect to our recommendation regarding quality assurance safeguards, HCFA commented
that it was unclear whether ensuring appropriate documentation would meet the goal of instituting
quality assurance safeguards.

The HCFA also provided technical comments. These comments related to our projections
involving potential growth in the therapeutic footwear benefit, the presence of a foot deformity as
a qualifying factor to receive custom-molded shoes, and “poor circulation” as a qualifying
condition. The HCFA noted that neither the Medicare Carriers Manual nor the Social Security
Act lists foot deformity as a qualifying condition for eligibility for custom-molded shoes. They
agreed that poor circulation is a generalized condition that could easily apply to all beneficiaries;
however, efforts to modify this requirement were unsuccessful because of opposition from the
podiatric community. The full text of HCFA’s comments is provided in Appendix D.

OIG RESPONSE

Recommendations

We appreciate HCFA’s attention and concern regarding the issues and recommendations
identified in this inspection. We concur with HCFA’s proposal to undertake an educational
initiative for diabetic footwear. Still, we believe further efforts, such as those suggested in our
recommendations, are needed to curb the questionable practices and irregularities detailed in our
report. We are hopeful that HCFA can secure the resources needed to carry them out.

With regard to our recommendation on quality assurance, we would like to clarify that
documentation is a separate and distinct issue. In our report, we expressed concerns regarding ill­


                                             )))))))))))
                                                 15
fitting footwear provided to beneficiaries. We also delineated concerns about the qualifications of
non-physician entities who fit and furnish therapeutic footwear.

As we indicated in our recommendation, we believe that HCFA, working with the DMERCs and
interested national organizations, should develop a plan to ensure that the therapeutic footwear
benefit contains quality assurance safeguards. The HCFA may wish to explore a number of
options with these organizations before deciding on a specific course of action. Hopefully,
collaboration with the DMERCs and industry organizations will lead to acceptable and effective
safeguards.

Technical Comments

In response to HCFA’s comments about future costs, we simply wanted to show what the cost
could be if the large number of beneficiaries who were potentially eligible for therapeutic footwear
began to use the benefit. The estimates were meant only to illustrate the cost of the benefit at
potential utilization levels. We felt it would be prudent to consider the full potential impact of the
vulnerabilities we have uncovered, especially the costs that could arise as a result of aggressive
marketing practices such as those we have seen on certain kinds of Medicare benefits. The HCFA
will have to monitor future increases in annual allowances to determine if utilization levels are
increasing. In updating our work, we have already identified a significant growth in the program
from 1996 to 1997. We found that 1997 allowances, which are 98 percent complete, show total
allowances of about $19.5 million, an increase of approximately 40 percent over 1996 totals and
almost a three-fold increase over 1994 levels.

With regard to the requirement that a beneficiary must have a foot deformity to qualify for
custom-molded shoes, HCFA commented that this requirement is not specified in the Medicare
Carriers Manual or the Social Security Act. However, we found this requirement in all four
DMERC manuals, and we have included wording in the report to reflect this.




                                             )))))))))))
                                                 16
                                 APPENDIX A

                    Statement of Certifying Physician for Therapeutic Shoes

Patient Name:___________________________________________________

HIC #:__________________________________________________________

I certify that all of the following statements are true:

       1) This patient has diabetes mellitus.

       2) 	This patient has one or more of the following conditions:
          (circle all that apply):

               a)   History of partial or complete amputation of the foot
               b)   History of previous foot ulceration
               c)   History of pre-ulcerative callus
               d)   Peripheral neuropathy with evidence of callus formation
               e)   Foot deformity
               f)   Poor circulation

       3) I am treating this patient under a comprehensive plan of care for his/her
      diabetes.

       4) This patient needs special shoes (depth or custom-molded shoes) because of
       his/her diabetes.


Physician Signature:_____________________________________________________

Date Signed:_____________________________________________________________

Physician Name (printed):________________________________________________

Physician Address:_______________________________________________________

_________________________________________________________________________

_________________________________________________________________________

Physician UPIN:__________________________________________________________




                                           )))))))))))
                                             A - 17
                                        APPENDIX B

           POINT ESTIMATES, CONFIDENCE INTERVALS, AND CHI-SQUARES

The tables below contain statistical estimates presented in the Findings section of the report. Chi-
square statistics, point estimates and corresponding confidence intervals were computed using
standard statistical formulas for a systematic random sample. For all categorical variables, the
sample size was calculated to produce estimates within 5 percent of the true value at the 95
percent confidence level.

Medicare paid $6.2 million of the $11.3 million on which our sample was based for claims
that did not have the proper documents to support medical need.

                   Point Estimate                                       95% Confidence Interval
                    $6,213,211                                          $5,595,101 - $6,831,321



When applied to the $13.9 million allowed for the 3 codes in 1996, allowances for claims
without the required supporting documentation totaled $7.7 million.

                   Point Estimate                                       95% Confidence Interval
                    $7,650,418                                          $7,102,729 - $8,198,106



Medicare allowed $1.1 million in 1996 for shoes which beneficiaries rarely or never wear.

                   Point Estimate                                       95% Confidence Interval
                    $1,132,242                                           $781,392 - $1,483,093



Claims from suppliers who did not provide professional credentials were significantly more
likely to have improper documentation.

                               Improper       Proper                                        % Improper
                             Documentation Documentation               Total               Documentation
    Credentials Not Provided      56            18                      74                     76%
      Credentials Provided       178           149                      327                    54%
            Overall              234           167                      401                    58%

CHI-SQUARE = 11.20                  DEGREES OF FREEDOM=1                         PROBABILITY=.0012



1
 This chi-square statistic indicates that we can reject the null hypothesis that providing credentials and having
proper documentation are independent at the 99.9 percent confidence level.

                                                    )))))))))))
                                                       B-1
                                 APPENDIX C

   CALCULATIONS ILLUSTRATING GROWTH POTENTIAL OF SHOE BENEFIT

Comparing claims data for therapeutic footwear with demographic information on Medicare
beneficiaries indicates that the potential number of eligible beneficiaries has barely been tapped.
Approximately 3.2 million Americans over the age of 65 have diabetes. If we assume that all
these persons are Medicare-eligible, then less than one out of 50 received therapeutic footwear in
1996. To illustrate the potential cost to the program for therapeutic footwear, we calculated cost
estimates assuming between 20 and 90 percent of diabetic beneficiaries may receive shoes and
inserts. We calculated that if 20 percent of diabetic beneficiaries received footwear, allowances
would most likely rise to over $150 million per year. If 50 percent of diabetic beneficiaries
received footwear, allowances would rise to more than $380 million. Finally, if 90 percent receive
shoes, allowances could total between $690 million and $1 billion annually.

We first calculated the cost of the average claim by dividing total allowances in our sample by the
number of beneficiaries in our sample. We then used this number to estimate the number of
beneficiaries receiving shoes in the entire population. Next, the incidence was calculated by
dividing the number of beneficiaries who received shoes in 1996 into 3.2 million. Because some
suppliers always maximized allowances by billing for three pairs of inserts, we also determined a
maximum reimbursement per claim. Finally, we took these reimbursement estimates and
multiplied them by the number of beneficiaries who would receive shoes at the 20 percent, 50
percent, and 90 percent level. The calculation steps are outlined below.

STEP 1
      Sample Beneficiaries         Sample Allowances                Allowance per Beneficiary
             474                      $113,469                              $239.39

STEP 2

      Population Estimate          Allowance Estimate               Allowance per Beneficiary
            47,400                     $11,346,900                          $239.39
            58,364                     $13,971,641                          $239.39

STEP 3

Population Estimate   # of Diabetics Over 65      % of Older Diabetics Receiving Shoes   Incidence
     58,364                 3,200,000                            1.8%                    1 out of 55

STEP 4

                    Max Expenditure                                        Max Expenditure
                    Shoes and Inserts     Estimated Usage                   Per Beneficiary
  Depth Shoes            $309                   80%                            $247.20
 Custom Shoes            $492                   20%                             $98.40
     Total                                     100%                            $345.60



                                               )))))))))))
                                                  C-1
STEP 5


  % of 3.2 Million         # of 3.2 Million
 Diabetics Over 65       Diabetics Over 65        Projected Allowances at    Projected Allowances at
Potentially Receiving   Potentially Receiving     Current Reimbursement     Maximized Reimbursement
     Footwear                 Footwear                   ($239.39)                  ($345.60)
        20%                     640,000                $153,209,600               $221,184,000
        50%                  1,600,000                 $383,024,000               $552,960,000
        90%                  2,880,000                 $689,443,200               $995,328,000




                                                )))))))))))
                                                   C - 2

            APPENDIX D





HEALTH CARE FINANCING ADMINISTRATION COMMENTS





                   )))))))))))
                      D - 1

)))))))))))
   D - 2

)))))))))))
   D - 3

)))))))))))
   D - 4

)))))))))))
   D - 5

